No.

IN THE
SUPREME COURT OF THE UNITED STATES
MISAEL HERRERA-FUENTES,
Petitioner,
v.
UNITED STATES,
Respondent.

CERTIFICATE OF SERVICE
I, Christine DeMaso, hereby certify that on this 5th day of January 2021, I
served the Petition for Writ of Certiorari, Motion to Proceed in Forma Pauperis,
Affidavit of Timely Filing by Mail, and this Certificate on all parties to be served.
In accordance with Rule 29.3 of the Supreme Court Rules, said service has
been made by sending one copy by first class mail, postage pre-paid to:
AUSA Seth R. Aframe
U.S. Attorney’s Office
53 Pleasant St., 4th Floor
Concord, NH 03301

Jeffrey B. Wall
Acting Solicitor General
Office of the Solicitor General
950 Pennsylvania Ave., NW
Washington, D.C. 20530-0001
Christine DeMaso
Assistant Federal Public Defender
Federal Public Defender Office
51 Sleeper Street, 5th Floor
Boston, MA 02210
(617) 223-8061

January 5, 2021

